~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Corrected Conditional Cross-Petition for Writ
of Certiorari in Empire Health Foundation, for Valley
Hospital Medical Center v. Xavier Becerra, Secretary of
Health and Human Services, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day and via e-mail service to the
following parties listed below, this 20th day of April,
2021:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Cross-Respondent
Daniel J. Hettich
Counsel of Record
King & Spalding
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 626-9128
dhettich@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Su ite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Anne M. Voigts
King & Spalding LLP
601 S. California Avenue
Suite 100
Pala Alto, CA 94304
(650) 422-6700
avoigts@kslaw.com

Counsel for Cross-Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 20, 2021

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

